Case 20-3427, Document 45, 12/10/2020, 2991524, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
10th day of December, two thousand twenty.

ORDER
Antonia W. Shields,
Docket No. 20-3427
Plaintiff - Appellant,
v.

United States,
Defendant - Appellee.

This appeal has been taken from an order that dismissed the complaint. The grounds of
dismissal make this appeal eligible for assignment to the Court’s Expedited Appeals Calendar
under Local Rule 31.2(b), and the appeal is hereby placed on that calendar.
Appellant’s principal brief has already been filed. Appellee’s brief is due no later than
January 14, 2021, 35 days from the date of this order. Appellant’s reply brief is due no later than
14 days after Appellee’s brief is filed. Absent extraordinary circumstances, the Court will not
grant a motion to extend the time to file a brief. See Local Rule 27.1(f)(1).

For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court
SECOND

ill

r*

Case l:20-cv-00152-GTS-CFH Document 10 Filed 09/11/20

Page 1 of 6

UNITED STA' 'ES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

ANTONIA W. SHIELDS,
Plaintiff.
1:20-CV-0152
(GTS/CFH)

v.
UNITED STA' 'ES
Defendant.

APPEARANCES:
ANTONIA W. SHIELDS
Plaintiff. Pm Se
P.O. Box 195
Saratoga Springs, flew York 12866
GLENN T. SU ODABY, Chief United States District Judge
DECISION and ORDER
Current y before the Court, in this pro .se civil rights action filed by Antonia W. Shields
(''Plaintiff') against the United States ("Defendant"), are United States Magistrate Judge
Christian F. Hummel's Report-Recommendation recommending that Plaintiffs Complaint be
dismissed with prejudice and without prior leave to amend pursuant to 28 U.S.C. § 1915, and
Plaintiffs Objection to the Report-Recommendation. (Dkt. Nos. 5, 6.) For the reasons set
forth below, the Report-Recommendation is accepted and adopted in its entirety.
I.

RELEVANT BACKGROUND
A.

Magistrate Judge Hummel’s Report-Recommendation

APPE^blX To fSTlTlOM
pi U

A)

Case l:20-cv-00152-GTS-CFH

Document 10 Filed 09/11/20

Page 2 of 6

Generally, in his Report-Recommendation, Magistrate Judge Hummel rendered the
following three findings ot fact and conclusions of law: (1) Plaintiffs claims against the United
States should be dismissed because they are barred by the doctrine of sovereign immunity,
fi

■

depriving the Court of subject-matter jurisdiction over them; (2) even if the Court Were to review
the merits of Plaintiff s claims, the Court would find that those claims are without merit, because
28 U.S.C. § 1915 and N.D.N.Y. Local Rule 5.4 (a) apply equally to both inmates and
non-inmates, and (b) ensure that indigent persons have access to the courts (without subjecting
their pleadings to a standard of review that is different from the standard governing pleadings by
claimants who have paid the statutory filing fee); and (3) because the defects in Plaintiffs claims
are substantive and not merely formal, they should be dismissed in their entirety with prejudice
and without a prior opportunity to amend. (Dkt. No. 5, at Part II.C.)
B.

Plaintiffs Objection to the Report-Recommendation

Generally, in her Objections, Plaintiff asserts the following two challenges to the
Report-Recommendation: (1) Plaintiff did not consent to review other claims by a U.S.
Magistrate Judge; and (2) because Plaintiff is a free citizen and not a prisoner, the standard of
review under 28 U.S.C. § 1915 conflicts with 28 U.S.C. § 453 which provides forf equal justice
to all citizens, rich or poor” (and therefore, judgment cannot be entered against her as a plaintiff
. proceeding in forma pauperis).
II.

(Dkt. No. 6.)

STANDARD OF REVIEW
When a specific objection is made to a portion of a magistrate judge's report-

recommendation, the Court subjects that portion of the report-recommendation to v. de novo

2

/xppENbVf to perrncN p, 2,

Case l;20-cv-00152-GTS-CFH

review.

Document 10 Filed 09/11/20

Page 3 of 6

Fed. k. Civ. P. 72(b)(2); 28 U.S.C. § 636(b)(1)©). To be “specific,” the objection

must, with particularity'; "identify [1] the portions of the proposed findings, recommendations, or
report to which it has an objection and [2] the basis for the objection." N.D.N.Y. L.R. 72.1©).
When performing such a de novo review, “[t]he judge may . . . receive further evidence. . . .” 28
U.S.C. § 636(b;(l). However, a district court will ordinarily refuse to consider evidentiary
material that cculd have been, but was not, presented to the magistrate judge in the first
instance.2 Similarly, a district court will ordinarily refuse to consider argument that could have
been, but was l ot, presented to the magistrate judge in the first instance. See Zhao v. State Univ.
o/WT, 04-CV-02i0.201 1 WL 3610717, at *1 (E.D.N.Y. Aug. 15, 2011) C‘[I]t is established
law that a distr ct judge will not consider new arguments raised in objections to a magistrate
judge's report and recommendation that could have been raised before the magistrate but were

1
See alsi Mario v. P&C Food Markets, Inc.., 313 F.3d 758, 766 (2d Cir. 2002) (“Although
Mario filed objections to the magistrate's report and recommendation, the statement with respect
to his Title VII claim was not specific enough to preserve this claim for review. The only
reference made to the Title VII claim was one sentence on the last page of his objections, where
he stated that it was error to deny his motion on the Title VII claim '[fjor the reasons set forth in
Plaintiffs Men Orandum of Law in Support of Motion for Partial Summary Judgment/ This bare
statement, dev< id of an)' reference to specific findings or recommendations to which he objected
and why, and u nsupported by legal authority, was not sufficient to preserve the Title VII
claim/')2

See Paddington Partners v. Bouchard, 34 F.3d 1132. 1137-38 (2d Cir. 1994) (“In
objecting to a magistrate's report before the district court, a party has no right to present further
testimony when it offers no justification for not offering the testimony at the hearing before the
magistrate.’’) [internal quotation marks and citations omitted]; Pan Am. World Airways, Inc. v.
Int'l Bhd. of Te .misters, 894 F.2d 36, 40, n.3 (2d Cir. 1990) (finding that district court did not
abuse its discretion in denying plaintiffs request to present additional testimony where plaintiff
“offered no justification for not offering the testimony at the hearing before the magistrate’’): cf.
U. S. v. Raddalz, 447 U.S. 667, 676, n.3 (1980) (“We conclude that to construe § 636(b)(1) to
require the district court to conduct a second hearing whenever either party objected to the
magistrate's credibility findings would largely frustrate the plain objective of Congress to
alleviate the increasing congestion of litigation in the district courts.”); Fed. R. Civ. P. 72(b),
Advisory Com nittee Notes: 1983 Addition (“The term 'de novo’ does not indicate that a
secondary evidentiary hearing is required.”).
3

Case l:20-cv-00152-GTS-CFH

Document 10

Filed 09/11/20

Page 4 of 6

not") (internal quotation marks and citation omitted); Hubbard v. Kelley, 752 F. S’ipp.2d 311.
312-13 (W.D.N.Y. 2009) (“In this circuit, it is established law that a district judge will not
consider new arguments raised in objections to a magistrate judge's report and recommendation
that could have been raised before the magistrate but were not.”) (internal quotation marks
omitted).
When only a general objection is made to a portion of a magistrate judge's
report-recommendation, the Court subjects that portion of the report-recommendation to only a
clear error review'.

Fed. R. Civ. P. 72(b)(2),(3); Fed. R. Civ. P. 72(b), Advisory Committee

Notes: 1983 Addition; see also Brown v. Peters, 95-CV-1641, 1997 WL 599355, at *2-3
(N.D.N.Y. Sept. 22, 1997) (Pooler, J.) [collecting cases], ajfd without opinion, 175-F.3d 1007
(2d Cir. 1999). Similarly, when an objection merely reiterates the same arguments made by the
objecting party in its original papers submitted to the magistrate judge, the Court subjects that
portion of the report-recommendation challenged by those arguments to only a clear error
review-.3 Finally, when no objection is made to a portion of a report-recommendation, the Court
subjects that portion of the report-recommendation to only a clear error review. Fed. R. Civ. P.
72(b), Advisory Committee Notes: 19-83 Addition. When performing such a ''clear error”
review, “the court need only satisfy itself that there is no clear error on the face of the record in

See Mario, 313 F.3d at 766 (“Merely referring the court to previously filed papers or
arguments does not constitute an adequate objection under either Fed. R. Civ. P. 72(b) or Local
Civil Rule 72.3(a)(3)."); Camardo v. Gen. Motors Hourly-Rate Emp. Pension Plan, 806 F. Supp.
380, 382 (W.D.N.Y. 1992) (explaining that court need not consider objections that merely
constitute a "rehashing" of the same arguments and positions taken in original papers submitted
to the magistrate judge); accord, Prailecm v. Cnty. of Schenectady, 09-CV-0924, 2010 WL
3761902, at *1, n.l (N.D.N.Y. Sept. 20, 2010) (McAvoy, J.); Hickman ex rel. M.A.H. v. Asirue.
07-CV-1077, 2010 WL 2985968, at *3 & n.3 (N.D.N.Y. July 27, 2010) (Mordue, C.J.); Almonte
v. N.Y.S. Div. of Parole, 04-CV-0484, 2006 WL 149049, at *4 (N.D.N.Y. Jan. 18, 2006) (Sharpe,
J.).
4

APmJMX To mrrtGtf

Case l-20-cv-00152-GTS-CFH Document 10 Filed 09/11/20

Page 5 of 6

order to accept the recommendation.” Id.4
After conducting the appropriate review, the Court may "accept, reject, or modify, in
whole or in parr, the findings or recommendations made by the magistrate judge.” 28 U.S.C. §
636(b)(1)(C)).
III.

ANALYSIS
For the sake of brevity, the Court will assume that the second challenge asserted in

Plaintiffs Objections is not merely a repetition of a claim asserted in her Complaint (which has
already been considered and rejected by Magistrate Judge Hummel). (Compare Dkt. No. 6 with
Dkt. No. 1.) Even assuming that fact, after carefully reviewing the relevant papers herein
including Magistrate Judge Hummel’s thorough Report-Recommendation, the Court can find no
error whatsoever in those portions of the Report-Recommendation to which Plaintiff has
specifically objected, and no clear-error in those portions of the Report-Recommendation to
which Plaintiff has not specifically objected: Magistrate Judge Hummel employed the proper
standards, accurately recited the facts, and reasonably applied the law to those facts. As a result,
the Report-Recommendation is accepted and adopted in its entirety for the reasons set forth
therein, and Pk intiffs Complaint is dismissed with prejudice and without prior leave to amend
for the reasons set forth in the Report-Recommendation. To those reasons, the Court would add
only that, in this District, Magistrate Judges are permitted to issue Report-Recommendations
P

regarding the pleading sufficiency of claims by litigants proceeding pro se (and litigants
proceeding in forma pauperis) pursuant to, among other things, 28 U.S.C. 636(b)(1)(B), which

4
See also Batista v. Walker, 94-CV-2826, 1995 WL 453299, at * 1 (S.D.N.Y. July 31,
1995) (Sotoma.v'or, J.) ("I am permitted to adopt those sections of [a magistrate judge's] report to
which no specific objection is made, so long as those sections are not facially erroneous.”)
(internal quotation marks and citations omitted).
5

APteN&lfcTB P£trn ON

f *r.

Case l:20-cv-00152-GTS-CFH Document 10 Filed 09/11/20 Page 6 of 6

does not require the consent of the parties.
ACCORDINGLY, it is
ORDERED that Magistrate Judge Hummers Report-Recommendation (Dkt. No. 5) is
ACCEPTED and ADOPTED in its entirety; and it is further
ORDERED that Plaintiff s Complaint (Dkt. No. 1) is DISMISSED with prejudice and
without prior leave to amend pursuant to 28 U.S.C. § 1915(e)(^)(B).
Dated: September 11,2020
Syracuse, New York

Glenn T. Suddnby
Chief U.S. District Judge

6

APPen&ix t*> ?£rrtic/v}
£?.(b #

z;

V

Case l:20-cv-00152-GTS-CFH

Document 11

Filed 09/11/20 Page 1 of 2

N THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

JUDGMENT IN A CIVIL CASE
ANTONIA W. SHIELDS
v.

1:20-CV-152 (GTS/CFH)

UNITED STATES
Decision by Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that, pursuant to the Decision and Order issued on
September 11, 2020 (Dkt. No. 10) by the Honorable Glenn T. Suddaby, that Magistrate
Judge Hummel's Report-Recommendation (Dkt. No. 5) is ACCEPTED and ADOPTED in its
entirety. Plaintiffs Complaint (Dkt. No. 1) is DISMISSED with prejudice and without prior
leave to amend pursuant to 28 U.S.C. § 1915(e)(2)(B). The Clerk is directed to CLOSE
this action.
All of the above pursuant to the Decision and Order issued by the Honorable Glenn T.
Suddaby, dated September 11, 2020. Dkt. No. 10.
DATED: September 11,2020

U,

Clerk of Court

s/ Q&hdlw oAiulbr
Shelly Muller
Courtroom Deputy Clerk

AT

N'L TZ V&XVM

,

Civl Case Number:
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
CIVIL FILING DIVISION - ALBANY

Antonia W. Shields

PLAINTIFF

v.

United States

DEFENDANT

ON MOTION TO FILE COMPLAINT FOR CIVIL ACTION
THIS IS: THE COMPLAINT FOR CIVIL ACTION

Antonia /. Shields

February 10, 2020

PO Box 195

AJo +

Saratoga Springs, NY 12866
315.368.4415

z

1

Rachel A. Petryna
Notary Public State of New York
No. 01PE6107354
Qualified In Saratoga County
Commission Expires March 29, 20 lD

cover
AP&&MDI K To l&OTiOM p <B,

(Afp-C)

QUESTION PRESENTED
Respectfully, does the federal government give
unequal right to a free United States citizen and give
unequal right to the United States Constitution when
judiciary, specifically under 28 U.S.C.§453, requires
standard of review, 28 U.S.C. §1915, because of Local Rule
5.4 U.S. district court for the Northern District of New
York? For civil action filed, a free U.S. citizen, determined
poor, is namedin standard of review, 28 U.S.C. §1915,
“prisoner.” Yet, for civil action filed, a free U.S. citizen,
rich, does not have same standard of review
and is not named “prisoner.” For free U.S. citizen
Shields filing civil action, does governmental use of this
different standard of review, 28 U.S.C. §1915, violate
security of “Blessings of Liberty” under the United States
Constitution preamble, undo equal right to the poor and
to the rich, and undo 28 U.S.C.§453 ?

page 1 of 5

APpFWOlX T& mrnois/

JURISDICTION
Federal Rule of Civil Procedure 1 governs this civil action in the
United States district court of the Northern District of New York Civil
Filing Division - Albany. As such, there is security of the just, speedy,
and inexpensive determination of this action. This one form of action,
this civil action, is commenced by filing this complaint with the court.
1. Jurisdictional subject matter is 28 U.S.C. §1331:
“Federal question The district courts shall have
original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.”
This civil action is a federal question civil action.
2. Jurisdictional venue general geography is 28 U.S.C.§1391(a)(2):
“a judicial district in which a substantial part of the events
or omissions giving rise to the claim occurred...”
The judicial district is the Northern District of New York
Civil Filing Division - Albany.
3. Jurisdictional venue residential geography is 28U.S.C.§1391(c):
“...a natural person • • • shall be deemed to reside in the
district in which that person is domiciled.”

page 2 of 5

A^e^btf "T& 'P£xfno&
?*

iOc

Shields is a U.S. citizen who is domiciled in Saratoga
County within the Northern District of New York Civil
Filing Division - Albany.
4. Jurisdictional timing (28 U.S.C.§2401) is just after one year
from February 7, 2019 final Decision and Order and final
Civil Judgment. There are no pending cases.The prior case
was Shields v. Klein et al. finally decided February 7, 2019.
Today is February 10, 2020. Different are the parties and
the U.S. district court complaint’s federal question.
5. Constitutional Rights Complaint pursuant to 28 U.S.C.
§133Ivc, violation of the Constitution of the United States
as hereinafter more fully appears.
FACTS
Local rule 5.4 of the Northern District of New York needs change
to become not in violation of the Constitution of the United
States. Harm was allegedly caused both to the Constitution of the
United States and to Shields, because the government arbitrarily made
happen on February 7, 2019, at U.S. district court Northern District of

page 3 of 5

TerraoAl

New York Civil Filing Division - Albany, final Decision and Order and
final Civil Judgment giving Shields no equal right in violation of the
Equal Right clause of United States law 28 U.S.C. §453, that binds
Oath to the U.S. Constitution preamble when pursuing justice
[following Local Rule 5.4 (Northern District of New York)]. Such
pursuit of justice harmed Shields and harmed the U.S. Constitution
by arbitrarily requiring standard of review 28 U.S.C.§1915 for free
citizen Shields determined poor, unlike requiring standard of review
separate from 28 U.S.C.§1915 for if Shields were rich. And,
the government’s pursuit of justice removed Shields’s free U.S.
citizen’s equal right by law 28 U.S.C. §453 - denying to secure full U.S.
Constitutional “Blessings of Liberty” protection - by imposing
governmental arbitrary restraint in violation of the U.S. Constitution
preamble; there was no equal right to the poor and to the rich for
standard of review 28 U.S.C. §1915 use for Shields, who is no
“prisoner,” who has never been “prisoner.”
Shields has always been a free U.S. citizen.

page 4 of 5
(Z.J

RELIEF
1. Shields requests a good change in L.R. 5.4, corrected by 28 U.S.C.
2072 to not violate the U.S. Constitution’s preamble, so to “secure
the Blessings of Liberty.”

2. Shields also respectfully requests $10,000 for harm done.
Truth is on the scaffold. Now, set in the beautiful stairwell railing
of the building housing the U.S. district court, Northern District of
New York, Civil Division - Albany at 445 Broadway, Albany, NY, the
judicial scales are in balance. Request is trial by court.
But, the claim for which relief may be granted may need to be
separated from governmental immunity, if conflict exists between the
U.S. Constitution and other federal law affecting a judicial swath,
change must happen because impartial justice must protect what is
good. Equal right is impartial justice, not governmental arbitrary
restraint. 28 U.S.C. §2072 may direct proper cause.

Thank you.

With respect tq the United States,
&

02. fO ZGTL O

AntoniaAV. Shields,<^pro se, PO Box 195',
Saratoga Springs, NY 12866

315. 368.4415
page 5 of 5

/XPP£(V)'£>[K "p PZT'.TIOM

p< 13„

Rachel A. Petryna
Notary Public State of New York
No. 01PE6107354
Qualified In Saratoga County
Commission Expires March 29, 20^0

JS 44 (Rev. 12'?12)

CIVIL COVER SHEET

I. (a) PLAINTIFF^ SPEEDS, AtNlTcWj A V\3.

DEFENDANTS

Vtoi-rz?) STtx-'Tts
(b) County of Residence of First Listed Piaintiff
SARffTB&A GeOMTV
(EXCEPTIN U.S. PLAINTIFF CASES)
(jl, y)

................
County of Residence-of FirstListed Defendant
(IN U.S. PLAINTIFF CASES ONLY)
Nurt: IN LAND CONDEMNATION CASES, USE THE LOCATION 0*
THE TRACT OF LAND INVOLVED

(c)

Attorneys (IfKnown)

Attorneys (Firm Name, Address, and Telephone Number)

to Se.

|i&i^
>1

II. BASIS OF JURISDICTION (Placean r in One Bnx Only}
O i

U.S. Government
Plaintiff

Federal Question
“ run7)

(ji Govern vhs/vT

cH'

U.S. Government
Defendant

to

III. CITIZENSHIP OF PRINCIPAL PARTIES (Piece on "X" in One Box,for Plaintiff
(For Diversity Cases Only)
and One Boxfor Defendant)
PTF
DEF
PTF
DEF
Citizen of Tnis State
D 1
□ I Incorporated or Principal Place
□ 4
0 4
of Business In This State

■—■------S£ScIV£ x
Diversity
(Indicate Citizenship ofParties in Item IIlj

O 4

QU£STIc^
IV. NATURE OF SLIT (Place or. "X" m One Bax Only)
| ?a- ^ ~r:v^?GONT-RAGT
□
O
□
□
□
O
□

□
□
□
O
O

D
D
O
D
O
CJ

110
120
130
140
150

Insurance
Marine
Miller Act
Negotiable Instrument
Recovery of Overpayment
&. Enforcement of Judgment
15! Medicare Act
152 Recovery of Defaulted
Student Loans
(Excludes Veterans')
153 Recovery of Overpayment
of Veteran’s Benefits
160 Stockholders’Suits
190 Other Contract
195 Contract Product Liability
196 Franchise

PERSONAL INJURY
0 310 Airplane
□ 315 Airplane Product
Liability
O 320 Assault, Libel &.
Slander
□ 330 Federal Employers'
Liability1
O 340 Marine
□ 345 Marine Product
Liability
i □ 350 Motor Vehicle
□ 355 Motor Vehicle
Product Liability
O 360 Other Persona!
injury
□ 362 Personal injury Medical Maioracrice
-REALTROPERTY- <--•> :
•CIVILRIGHTS ~ - 210 Land Condemnation
^440 Other CjyjlRjghte,
220 Foreclosure
ID 441 Voting
V7
230 Rent Lease &. Ejectment
D 442 Employment
240 Tons to Land
□ 443 Housing'
245 Tort Product Liability
Accommodations
290 All Other Rea! Property
O 445 Amer w,'Disabilities Employment
□ 446 Amer. w/Disabilities Other
D 44S Education

Citizen of Another State

□ 2

O

2

Incorporated and Principal Place
of Business In Another State

□ 5

0 5

Citizen or Subject of a
Foreign Country

□ 3

□

3

Foreign Nation

a 6

0 6

^yT0RFETTURE/PEi\A~Un~^

PERSONAL INJURY
O 365 Personal Injury Product Liability
O 367 Health Care/
Pharmaceutical
Personal Injury
Product Liability
□ 36S Asbestos Persona!
Injury Product
Liability
PERSONAL PROPERTY
O 370 Other Fraud
O 371 Truth in Lending
O 380 Other Personal
Property Damage
O 385 Property Damage
Product Liability

□ 625 Drug Related Seizure
of Property 21 USC 881
D 690 Other

/ • ^jssOTHERrSTATUTES
□ 422 Appeal 28 USC 158
□ 423 Withdrawal
28 USC 157
^ ^PROPERTY-RIGHTS
□ 820 Copyrights
D 830 Patent
O 840 Trademark

□
O
□
□

-■LABOR
710 Fair Labor Standards
Act
720 Labor/Management
Relations
740 Railway Labor Act
751 Family and Medical
Leave Act
790 Other Labor Litigation
791 Employee Retirement
Income Security Act

□
□
D
□
□

□
O
O
O
□
O
□

t

SOCIAL-SECURITY-861 HI A (1395 ft;
862 Biack Lung (923)
863 DIWC/DIWW (405(g))
864 SSID Titie XVI
865 RSI (405(c)!

□
□
□
□
□
O
□

375 False Claims Act
400 State Reapportionment
410 Antitrust
430 Banks and Banking
450 Commerce
460 Deportation
470 Racketeer Influenced and
Corrupt Organizations
480 Consumer Credit
490 Cable/Sat TV
850 Securities/Commodities/
Exchange
890 Other Statutory Actions
891 Agricultural Acts
893 Environmental Matters
895 Freedom of Information
Act
896 Arbitration
899 Administrative Procedure
Act/Review or Appeal of
Agency Decision
950 Constitutionality of
State Statutes

□
□
/PRISONERTETITIONS y □
'-FEDERAL-TAX SUITS • □
Habeas Corpus:
□ 870 Taxes (U.S. Plaintiff
□ 463 Alien Detainee
or Defendant)
□ 510 Motions to Vacate
□ S71 IRS-Third Pam□
Sentence
26 USC 7609
Q 530 General
□ 535 Death Penalty
JMMIGRAT-IQN
Other:
□ 462 Naturalization Application
Rache! A, Petryna
Q 540 Mandamus & Other
□ 465 Other Immigration
□ 550 Civil Rights
Notary Public State of New York
Actions
□ 555 Prison Condition
No. 01 PE6107354
□ 560 Civil Detainee Qualified In Saratoga County
Conditions of
Commission Expires March 2S, ?q?o
Confinement

Y. ORIGIN (Fiace an "X" in One Box Onlyi
J^l

Original
Proceeding

D 2 Removed from
State Court

□ 3

Remanded from
Appellate Court

□ 4 Reinstated or
Reopened

□ 5 Transferred from
□ 6 Multidistrici
Anotner District
Litigation
Ispecifyt
Cite the U.S. Civil Statute under which you are filing (Da not cite jurisdiciional statutes unless diversity! r

VI. CAUSE OF ACTION

________C-CVlL ACTiCN ClAlfVt CC-NPt-'CT blViLfttCOWSTVCUCriAIMrtL VlCoATlCN

VII. REQUESTED IN
□ CHECK. IF THIS IS A CLASS ACTION
UNDER RULE 23. F.KCv.P
COMPLAINT:
(Vnu)RELATED CASE(S)
ISec instructionsj:
IF ANY
JUDGE
DATz

ZO^O

DEMANDS

tgnatcre of attorns?

;

CHECK YES oniy if demanded iV complain?: ih)

CL.tfiUcT

JURY DEMAND:

tfo
I5o(CKET NUMBER
IRD
J

FOR OFFICE USE ONLY
RECEIPT =

AMOUNT

D Yes

JUDGE

flFC.

set

MAG. JUDGE

to

CAT?,3>)

psrerrodd p. 14.

XNo

I *i

w -

JS 44 Reverse'fRcv 12/12)

INSTRUCTIONS FOR ATTORNEYS COMPLETING CIVIL COVER SHEET FORM JS 44
Authority For Civil Cover Sheet
Tne JS 44 civil cover sheet and the information contained herein neither replaces nor supplements the filings and service of pleading, or other papers as
required by law, except as provided by locai rules of court. This form, approved by the Judicial Conference of the United States in September 1974. is
required for the use of the Cierk of Court for the purpose of initiating the civil docket sheet. Consequently, a civil cover sheet is submitted to the Clerk of
Court for each civil complaint filed. The attorney filing a case should complete the form as follows:
Ufa)

(b)

(c)

Plaintiffs-Defendants. Enter names (last, first middle initial) of plaintiff and defendant. If the plaintiff or defendant is a government agency, use
only the fuli name or standard abbreviations. If the plaintiff or defendant is an official within a government agency, identify first the agency and
then the official, giving both name and title.
County of Residence. For each civil case filed, except U.S. plaintiff cases, enter the name of the county where the first listed plaintiff resides at the
time of filing. In U.S. plaintiff cases, enter the name of the county' in which the first listed defendant resides at the time of filing. (NOTE: In land
condemnation cases, the county of residence of the "defendant" is the location of the tract of land involved.)
Attorneys. Enter the firm name, address, telephone number, and attorney of record. If there are several attorneys, list them on an attachment, noting
in this section "(see attachment)".

II.

Jurisdiction. The basis ofjurisdiction is set forth under Ruie 8(a), F.R.Cv.P., which requires that jurisdictions be shown in pleadings. Place an "X"
in one of the boxes. If there is more than one basis ofjurisdiction, precedencellgiven in the order shown below.
United States plaintiff (1) Jurisdiction based on 28 U.S.C. 1345 and 1348. Suits by agencies and officers of the United States are included here.
United States defendant. (2) When fne plaintiff is suing the United States, its officers or agencies, place an "X" in this box.
Federal question. (3) This refers to suits under 28 U.S.C. 1331, where jurisdiction arises under fne Constitution ofthe United States, an amendment
to the Constitution, an act of Congress or a treaty of theUnited States. In cases" where the U.S.Is a’party, t'he’li.S. plaintiff or defendant code takes"
precedence, and box j or 2 should be marked.
Diversity' of citizenship. (4) This refers to suits under 28 U.S.C. 1332, where parties are citizens of different states. When Box 4 is checked, fne
citizenship of the different parties must be checked. (See Section III below; NOTE; federal question actions take precedence over diversitycases.)

III.

Residence (citizenship) of Principal Parties. This section of fne JS 44 is to be completed if diversity of citizenship was indicated above. Mark this
section for each principal party. !-

IN'.

Nature of Suit. Place an "X" in the appropriate box. If the nature of suit cannot be determined, be sure fne cause of action, in Section VI below, is
sufficient to enable fne deputy cierk or fne statistical clerkfs) in the Administrative Office to determine fne nature of suit. If the cause fits more than
one nature of suit, select the most definitive.

V.

Origin. Piace an "X" in one ofthe six boxes.
Original Proceedings. (1) Cases which originate in the United States district courts..
Removed from State Court. (2) Proceedings initiated in state courts may be removed to the district courts under Title 28 U.S.C.. Section 1441.
When the petition for removal is granted, check this box.
Remanded from Appellate Court. (3 ) Check this box for cases remanded to the district court for further action. Use the date of remand as the fiiinc
date.
Reinstated or Reopened. (4) Check this box for cases reinstated or reopened in the district court. Use the reopening date as the filing date.
Transferred from Another District. (5) For cases transferred under Titie 28 U.S.C. Section 1404(a). Do not use this for within district transfers or
multidistrict litigation transfers.
Muhidistric! Litigation. (6) Check this box when a multioistrict case is transferred into fne district under authority of Titie 28 U.S.C. Section 1407.
When this box is checked, do not check (5i above.

NT.

Cause of Action. Report fne civil statute directly related to the cause of action and give a brief description ofthe cause. Do not cite jurisdictional
statutes unless diversity . Example: U.S. Civil Statute: 47 USC 553 Brief Description: Unauthorized reception of cabie service

VII.

Requested in Complaint. Class Action. Place ar. "X,: in this box if you are filing a class action unde: Ruie 23. F.R.Cv.P.
Demand, in this space enter the actual dollar amount being demanded or indicate other demand, such as a preiimtnarv iniunctior..
Jury Demand. Check the appropriate box to indicate whether or not a jury is being demanded.

VIII.

Related Cases. This section of the JS 44 is used to reference related pending cases, if any. if there are related pending cases, insert the docket
number; and fne corresponding judge name; for such cases.

Date and Attorney Signature. Date and sign fne civil cover sheet.

/tppEM « Tfc rKepSTOl CKJ
f> i 15*>

Case l:20-cv-00152-GTS-CFH

Document 15

Filed 10/07/20

Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

ELECTRONIC NOTICE OF CIVIL APPEAL & CLERK’S CERTIFICATION

Dear Clerk of the Court,
Please take notice that on September 30, 2020 the court received a notice of appeal. This
notice serves to inform you of the pending appeal and provides you with the information needed
to process the appeal.
I, JOHN M. DOMURAD, CLERK, U.S. District Court for the Northern District of New York,
DO, HEREBY CERTIFY that the foregoing docket entries, with the exception of the documents
listed below, are maintained electronically on the court’s CM/ECF system and constitute the Record
on Appeal in the below listed action.
The following documents are not available electronically. Please notify the Syracuse Clerk’s
Office if you need any of the following documents:
Docket No.(s):___
IN TESTIMONY WHEREOF, I have hereunto set my hand
and caused the Seal of said Court to be hereto affixed at the
City of Utica, New York, this 7th day of October, 2020.

/Ith
0

J Cleric of Court

By:

si Helen M. Reese
Deputy Clerk

Case Information
Case Name & Case No.

Antonia W. Shields v. United States
1:20-CV-0152 (GTS/CFH)

Docket No. of Appeal:
Documents Appealed:

13
10 & 11

Fee Status:
Paid
IFP revoked
Counsel:
Time Status:

Due__
Application Attached
Retained

Timely X

Motion for Extension of Time:
Certificate of Appealability:
****

Waived (IFP/CJA)_X_
IFP-pending before USDJ__

Pro Se X
Untimely__
Granted

Granted__

Denied

Denied
N/A

Please note that the Fee Status is Waived-IFP, the Dkt. No. 2 - Motion for Leave to Proceed
In Forma Pauperis was Granted at Dkt. No. 5 - Report-Recommendation and Order dated April
30, 2020.
To PSTCUGN
(L

--m
T-

:• i

-

of $50 (as approved by the Judicial Conference at its March, 2013 session) for a total fee to file

felSF

a c‘v‘* case

ri-

$400- You mus^ either pay the fee in full at the time you present your complaint to

the Court for filing or, if you are unable to pay the fee, you must submit an application to proceed
in forma pauperis along with your complaint.
If you file an application to proceed in forma pauperis instead of a filing fee, the Court will
then consider your application and determine whether you are entitled to proceed in forma
pauperis. See Local Rule 5.4. If the Court denies your in forma pauperis application, you must
pay the full civil case fee of $400.00 within a certain period of time or your action will be dismissed.
In addition to waiving the obligation to pay the filing fee, being granted permission to
proceed in forma pauperis entitles a person to: (1) submit a motion for appointment of counsel;
and (2) have his or her complaint served on the defendant(s) by the U.S. Marshals Service. If you
are not proceeding with your action in forma pauperis, you will be responsible for serving the
summons and complaint on each defendant, in accordance with Federal Rule of Civil Procedure
4.
You may submit an in forma pauperis application at any time during the litigation, even if
you have already paid the filing fee in full. However, you should note that being permitted to
proceed in forma pauperis after you have paid the fee will not entitle you to the return of the money
you have paid.
Pro se litigants proceeding in forma pauperis are not exempt from other fees and
costs in their actions, including but not limited to copying and witness fees. Thus, pro se
litigants must still provide identical copies of documents that must be served on the parties that
they name in their lawsuit. If you cannot afford to pay for copies, you must handwrite copies of
these documents for service on the other parties to the action.
It is important to realize that, even though you believe you cannot afford to pay for copies

NYND Pro Se Handbook (Civilian)
Revision Date 3/24/2015

Page 17

Tt» pSTtnofcS >> t I T,

F)

r

liable of contents]

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 1 of 9

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

ANTONIA W. SHIELDS,
Plaintiff,
v.
o

No. 1:20-CV-152
(GTS/CFH)

UNITED STATES OF AMERICA,
Defendant.

APPEARANCES:
Antonia W. Shields
P.O. Box 195
Saratoga Springs, New York 12866
Plaintiff pro se
REPORT-RECOMMENDATION AND ORDER

►rj

I. In Forma Pauperis
Plaintiff jdto se Antonia W. Shields commenced this action on February 13, 2020,
by filing a complaint. See Dkt. No. 1 (“Compl.”).1 Plaintiff also filed a motion to proceed
in forma pauperis (“IFP”). See Dkt. No. 2. The undersigned has reviewed plaintiff’s IFP
application and has determined that plaintiff financially qualifies to proceed IFP.2

E

II. Initial Review

1

The Court has dismissed plaintiff’s two previous lawsuits. See Shields v. Klein. No. 1:18-CV-835
(MAD/CFH) (dismissing with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) for failure to state a
claim); Shields v. New York State. No. 1:14-CV-00624 (DNH/TWD) (dismissing plaintiffs complaint for
failure to comply with Court Order).
2 Plaintiff is advised that although she has been granted IFP status, she is still required to pay any fees
and costs she may incur in this action, including but not limited to copying fees, transcript fees, and
witness fees.

1

APPZNl}* is terrnotf
G)

*8,

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20

Page 2 of 9

A. Legal Standard
Section 1915 of Title 28 of the United States Code directs that, when a plaintiff
seeks to proceed IFP, “the court shall dismiss the case at any time if the court
determines that... the action or appeal (i) is frivolous or malicious; (ii) fails to state a
claim on which relief may be granted; or (iii) seeks monetary relief against a defendant
o

who is immune from such relief.” 28 U.S.C. § 1915(e)(2)(B). Thus, it is a court’s
responsibility to determine that a plaintiff may properly maintain his complaint before
permitting.him to proceed with his action.
Where, as here, the plaintiff proceeds pro se, “the court must construe his
submissions liberally and interpret them to raise the strongest arguments that they
suggest.” Kirkland v. Cablevision Svs., 760 F.3d 223, 224 (2d Cir. 2014) (per curiam)

”fi

(internal quotation marks omitted). However, this does not mean the Court is required
to accept unsupported allegations that are devoid of sufficient facts or claims. Although
detailed allegations are not required at the pleading stage, the complaint must still
include enough facts to provide the defendants with notice of the claims against them
and the grounds upon which these claims are based. See Ashcroft v. Iqbal. 556 U.S.
662, 678 (2009); Bell Atlantic v. Twomblv. 550 U.S. 544, 555-56 (2007). Ultimately, the

cc plaintiff must plead “enough facts to state a claim to relief that is plausible on its face.”
Twomblv, 550 U.S. at 570.
Pleading guidelines are set forth in the Federal Rules of Civil Procedure (“Fed. R.
Civ. P.”). Specifically, Rule 8 provides that a pleading which sets forth a claim for relief
shall contain, among other things, “a short and plain statement of the claim showing that
the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). “The purpose ... is to give fair

2
7T> P£T* I'QfJ

Case l:20-cv-00152-GTS-CFH

Document 5

Filed 04/30/20 Page 3 of 9

notice of the claim being asserted so as to permit the adverse party the opportunity to
file a responsive answer, prepare an adequate defense and determine whether the
doctrine of res judicata is applicable.” Flores v. Graphtex. 189 F.R.D. 54, 54 (N.D.N.Y.
1999) (internal quotation marks and citations omitted). Rule 8 also requires the
pleading to include:
a

(1) a short and plain statement of the grounds for the court’s
jurisdiction . . .
(2) a short and plain statement of the claim showing that the
pleader is entitled to relief; and
(3) a demand for the relief sought
Fed. R. Civ. P. 8(a). Although “[n]o technical form is required,” the Federal Rules make
clear that each allegation contained in the pleading “must be simple, concise, and
direct.” Id. at 8(d).
Further, Rule 10 of the Federal Rules provides in pertinent part that:
[a] party must state its claims or defenses in numbered
paragraphs, each limited as far as practicable to a single set
of circumstances. A later pleading may refer by number to a
paragraph in an earlier pleading. If doing so would promote
clarity, each claim founded on a separate transaction or
occurrence - and each defense other than a denial - must
be stated in a separate count or defense.

K

Fed. R. Civ. P. 10(b). This serves the purpose of “provid[ingj an easy mode of
identification for referring to a particular paragraph in a prior pleading[.j” Flores, 189
F.R.D. at 54 (internal quotation marks and citations omitted). A complaint that fails to
comply with the pleading requirements “presents far too a heavy burden in terms of
defendants’ duty to shape a comprehensive defense and provides no meaningful basis
for the Court to assess the sufficiency of their claims.” Gonzales v. Wing, 167 F.R.D.

3
P£ttttoN |> n~c4

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 4 of 9

352, 355 (N.D.N.Y. 1996). As the Second Circuit has held, “[w]hen a complaint does
not comply with the requirement that it be short and plain, the court has the power, on
its own initiative ... to dismiss the complaint." Salahuddin v. Cuomo. 861 F.2d 40, 42
(2d Cir. 1988) (citations omitted). However, “[d]ismissal ... is usually reserved for
those cases in which the complaint is so confused, ambiguous, vague, or otherwise
o

unintelligible that its true substance, if any, is well disguised." IcL (citations omitted). In
such cases of dismissal, particularly when reviewing a jdto se complaint, the court
generally affords the plaintiff leave to amend the complaint. See Simmons v. Abruzzo.
49 F.3d 83, 86-87 (2d Cir. 1995). A court should not dismiss a complaint if the plaintiff
has stated “enough facts to state a claim to relief that is plausible on its face.” Twomblv
550 U.S. at 570. “A claim has facial plausibility when the plaintiff pleads factual content

*T)

that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged." Iqbal. 556 U.S. at 678 (citation omitted).

B. Plaintiff’s Complaint
The complaint states that Northern District of New York Local Rule
(“N.D.N.Y.L.R.”) 5.4 violates the “Equal Rights clause of United States law 28 U.S.C. §

x

453” “by arbitrarily requiring standard of review [sic] 28 U.S.C. § 1915” of plaintiff, a
“free citizen” “determined poor, unlike requiring standard of review separate from 28
U.S.C. § 1915 for if [plaintiff] were rich.” Compl. at 5. Generously construing the
complaint, plaintiff argues that, by reviewing her IFP application in her prior lawsuit
pursuant to N.D.N.Y.L.R. 5.4 and 28 U.S.C. § 1915, the Court inappropriately labeled
her a “prisoner.” JcL Plaintiff requests as relief (1) “a good change in [N.D.N.Y.L.R.] 5.4,

4
/WBN&IX 1b PfeTHTcW f 12-U-

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 5 of 9

corrected by 28 U.S.C. § 2072 to not violate the U.S. Constitution’s preamble,” and (2)
“$10,000 for harm done.” Id. at 6.

C. Analysis3
1. Sovereign Immunity
o

“Under the Constitution, the United States Government possesses absolute
immunity from suit in its courts without its consent ‘and the terms of its consent to be
sued in any court define that court’s jurisdiction to entertain the suit.’” Smith v. Brown,
296 F. Supp. 3d 648, 660 (S.D.N.Y. 2017) (quoting United States v, Sherwood, 312
U.S. 584, 586 (1941)) (further citations omitted). “The doctrine of sovereign immunity is
jurisdictional in nature,” Makarova v. United States, 201 F.3d 110, 113 (2d Cir. 2000),
and “[ajbsent a waiver, sovereign immunity shields the Federal Government and its
agencies from suit.” F.D.I.C. v. Meyer, 510 U.S. 471,475 (1994); see United States v.
Mitchell, 463 U.S. 206, 212 (1983) (“It is axiomatic that the United States may not be
sued without its consent and that the existence of consent is a prerequisite for
jurisdiction.”). Here, plaintiff names the United States as the sole defendant in this
action and does not argue or present any facts from which the undersigned could
plausibly infer that her claims fall within an applicable waiver. See Compl. at 1. Thus
plaintiff’s claims are barred by the doctrine of sovereign immunity and the Court lacks
subject matter jurisdiction over this matter. See Makarova. 201 F.3d at 113; Meyer. 510
U.S. at 475.

3 All unpublished opinions cited in this Report-Recommendation and Order, unless otherwise noted, have
been provided to plaintiff.

5
ApfENDt* Tb'PetlTJOfl pt22.

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 6 of 9

2. Review of Merits of Claims
Plaintiffs argument that N.D.N.Y.L.R. 5.4 is violative of her constitutional rights
because, by requiring the Court to review her IFP motion relating to her prior lawsuit
pursuant to the standard set forth in 28 U.S.C. § 1915, she was inappropriately labeled
a prisoner, is meritless. See Compl. at 5. N.D.N.Y.L.R. 5.2(a) expressly states that
o

Title 28 U.S.C. § 1915 and N.D.N.Y.L.R. 5.4 “govern in forma pauperis proceedings.”
Although N.D.N.Y.L.R. 5.4—which is effectively a restatement of 28 U.S.C. § 1915—
discusses IFP motions in reference to “prisoner litigants” in the context of the Prison
Litigation Reform Act (“PLRA”), it is well-established that Section 1915 applies to
inmates and non-inmates equally. N.D.N.Y. L.R. 5.4(a). “While the text of 28 U.S.C. §
1915(a)(1) appears to only provide for the [IFP] status of prisoner litigators, it is well-

»Y]

established that [Section] 1915(a)(1) affords all natural persons with the opportunity to
apply for permission to proceed without prepayment of fees.” Eqnatski v. Mortilla, No.
06-CV-1405 (JS/ARL), 2006 WL 8452994, at *2 n.2 (E.D.N.Y. July 21,2006); see
Leonard v. Lacy, 88 F.3d 181, 183 (2d Cir. 1996) (listing the PLRA’s revisions to 28
U.S.C. § 1915 and recognizing that the use of “prisoner” in Section 1915(a)(1) was error
by inserting “[sic]” in the quotation from the PLRA); Powell v. Hoover. 956 F. Supp. 564,

w 566 (M.D. Pa. 1997) (holding that “a fair reading of [Section 1915 in its entirety] is that it
is not limited to prisoner suits”).
Moreover, insofar as the complaint may be read as asserting a similar, but
distinct claim, that N.D.N.Y.L.R. 5.4 and Section 1915 force the Judges of the Northern
District of New York to violate their oath contained in 28 U.S.C. § 453 to “do equal right
to the poor and to the rich” by requiring them to apply different standards to the rich and

6
A W-eM&sx Tt esrrrcort ^2.?.

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 7 of 9

poor, plaintiff’s claim lacks merit. See Compl. at 2. It is well-settled that the purpose of
Section 1915 is to ensure that indigent persons are not prevented from accessing the
courts due to their inability to pay filing fees. See, e.q., Hobbs v. County of
Westchester, No. 00-CV-8170(JSM), 2002 WL 868269, at *1 (S.D.N.Y. May 3, 2002)
(“The purpose of the statute permitting litigants to proceed [IFP] is to insure that indigent
o

persons have equal access to the judicial system.”). The Court reviews IFP motions “to
weed out the litigants who falsely understate their net worth in order to obtain [IFP]
status when they are not entitled to that status based on their true net worth” and “[t]o
discourage abuse of [the] privilege" of proceeding IFP—not to discriminate against
those seeking to properly avail themselves of IFP status. Cuoco v. U.S. Bureau of
Prisons, 328 F. Supp. 2d 463, 467 (S.D.N.Y. 2004) (internal quotation marks and

»rj

citations omitted).
To the extent plaintiff argues that N.D.N.Y.L.R. 5.4 and Section 1915 require the
Court to discriminate against indigent litigants by subjecting their complaints to a review
of the sufficiency of the complaint, which could result in dismissal of their action, but not
complaints of those who pay the filing fee, her argument lacks merit. See Compl. at 5.
Although the district court may dismiss meritless claims of a litigant seeking to proceed

tc IFP, it is equally true that the district court may sua sponte dismiss meritless claims of a
litigant who has paid the filing fee. See Mauro v. Hireriqht, No. 5:19-CV-1343
(GLS/ATB), 2019 WL 5788561, at *2 (N.D.N.Y. Nov. 6, 2019) (“Although [the] plaintiff
has paid the filing fee, the district court has ‘the inherent authority to sua sponte dismiss
a fee-paid action as frivolous.’”) (quoting Mendez Da Casta v. Marcucilli. 792 F. App’x

t

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 8 of 9

865, 867 (2d Cir. 2019)). Consequently, even assuming that the Court could exercise
jurisdiction over this matter, which it cannot, plaintiffs complaint fails to state a claim.

3. Leave to Amend
When addressing a £ro se complaint, a district court generally “should not [be]
o

dismissed] without granting leave to amend at least once when a liberal reading of the
complaint gives any indication that a valid claim might be stated.” Shomo v. City of New
York. 579 F.3d 176, 183 (2d Cir. 2009) (internal quotation marks and citation omitted).
Flowever, the court is not required to grant leave to amend when doing so would be
futile. See Cuoco v. Mortisuqu, 222 F.3d 99, 112 (2d Cir. 2000). Here, because “[t]he
problem[s] with [plaintiffs] causes of action [are] substantive[,] better pleading will not
cure [them,]” and any attempt to amend would, therefore, be futile. ]d. Accordingly, it is
recommended that plaintiffs complaint be dismissed in its entirety with prejudice and
without opportunity to amend.

III. Conclusion
WHEREFORE, for the reasons set forth herein, it is hereby
a

ORDERED, that plaintiffs motion to proceed in forma pauperis (Dkt. No. 2) is
GRANTED for purposes of filing only; and it is
RECOMMENDED, that plaintiffs complaint (Dkt. No. 1) be DISMISSED WITH
PREJUDICE AND WITHOUT OPPORTUNITY TO AMEND; and it is further
ORDERED, that the Clerk of the Court serve this Report-Recommendation &
Order on plaintiff in accordance with Local Rules.

8

T£> ?£TlTj6(vf p «ZSJ

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 9 of 9

IT IS SO ORDERED.
Pursuant to 28 U.S.C. § 636(b)(1), plaintiff has FOURTEEN (14) days within
which to file written objections to the foregoing report. Such objections shall be filed
with the Clerk of the Court. FAILURE TO OBJECT TO THIS REPORT WITHIN
FOURTEEN (14) DAYS WILL PRECLUDE APPELLATE REVIEW. Roldan v. Racette.
o

984 F.2d 85, 89 (2d Cir. 1993) (citing Small v. Sec’v of Health and Human Servs., 892
F.2d 15 (2d Cir. 1989)); see ajso 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72 & 6(a).4
Dated: April 30, 2020
Albany, New York

Christian F. Hummel
U.S. Magistrate Judge
>fi

4 If you are proceeding pro se and are served with this Order by mail, three additional days will be added
to the fourteen-day period, meaning that you have seventeen days from the date the Order was mailed to
you to serve and file objections. Fed. R. Civ. P. 6(d). If the last day of that prescribed period falls on a
Saturday, Sunday, or legal holiday, then the deadline is extended until the end of the next day that is not
a Saturday, Sunday, or legal holiday, id § 6(a)(1)(C).

9

■

IV ion IV^l

V VU1 l

I '

1

nup3.//uynu-cci.bsu.UCIl/t;gl-oiri/UK.lKpt.pi royujyo ILL I 3HL4 1-L,_1 U

l 'I \-J

CLOSED,PRO SE
U.S. District Court
Northern District of New York - Main Office (Syracuse) [NextGen CM/ECF Release
1.3 (Revision 1.3.6)] (Albany)
CIVIL DOCKET FOR CASE #: l:20-cv-00152-GTS-CFH
Internal Use Only

(aw. fe)

N

Shields v. United States
Assigned to: Chief Judge Glenn T. Suddaby
Referred to: Magistrate Judge Christian F. Hummel
Demand: $10,000
Cause: 42:1983 Civil Rights Act

Date Filed: 02/12/2020
Date Terminated: 09/11/2020
Jury Demand: None
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Antonia W. Shields

represented by Antonia W. Shields
P.O. Box 195
Saratoga Springs, NY 12866
Email:
PRO SE

V.
Defendant
United States
Email All Attorneys
Email All Attorneys and Additional Recipients
Date Filed

Docket Text

#

02/12/2020

1

COMPLAINT against United States filed by Antonia W. Shields. (Attachments:
# i Civil Cover Sheetj(hmr) (Entered: 02/13/2020)

02/12/2020

2

MOTION for Leave to Proceed in forma pauperis filed by Antonia W. Shields.
Motions referred to Christian F. Hummel, (hmr) (Entered: 02/13/2020)

02/13/2020

3

PRO SE HANDBOOK (Packet) and NOTICE mailed to pro se plaintiff via
regular mail on 2/13/2020. (hmr) (Entered: 02/13/2020)

02/20/2020

4

PRO SE HANDBOOK and NOTICE returned executed by Antonia W. Shields.
(Attachments: # \ Cover letter, # 2 Mailing envelope) (see) (Entered02/21/2020)

04/30/2020

5

REPORT-RECOMMENDATION AND ORDER: re 1_ Complaint filed by
Antonia W. Shields: that plaintiffs motion to proceed in forma pauperis (Dkt.
No. 2 ) is Granted for purposes of filing only; Recommended, that plaintiffs
complaint (Dkt. No. I) be Dismissed with prejudice and without opportunity to
AMi&NtoX To TgftTiOfcS

I of 3

C Af>p < H )

Z~7

r

9/24/2020,3:08 PI

’ 1 ML/

mips;//nyna-ecr.sso.acn/cgi-bin/UktKpt.pr.'89U3 98722154241 -L 1 C

amend; and that the Clerk of the Court serve this Report-Recommendation &
Order on plaintiff in accordance with Local Rules. (Objections to R&R due by
5/14/2020, Case Review Deadline 5/18/2020), Motions terminated: 2 MOTION
for Leave to Proceed in forma pauperis filed by Antonia W. Shields.Signed by
Magistrate Judge Christian F. Hummel on 04/30/2020. (Attachments: # 1
Unpublished Cases) [A copy of this Report-Recommendation and Order,
together with the unpublished cases were served upon pro se plaintiff via regular
mail at P.O. Box 195, Saratoga Springs, NY 12866 on 4/30/2020.](hmr)
(Entered: 04/30/2020)

2 of 3

05/06/2020

6

06/10/2020

7 Letter Motion from Antonia W. Shields-requesting a three judge decision and a
copy of the docket sheet. [A copy of the docket sheet was mailed to pro se
plaintiff via regular mail on 6/11/2020.] (Attachments: # \ Envelope)(hmr)
(Entered: 06/11/2020)

06/15/2020

8

TEXT ORDER denying with prejudice 7 Plaintiffs request for a three-judge
court for each of the following two reasons. First, Plaintiff has failed to "submit
the first pleading in which [Plaintiff] asserts the cause of action requiring a
three-judge court," as required by Local Rule 9.1 of the District1 s Local Rules
of Practice. Second, in any event, Plaintiff has failed to show either that the
convening of a three-judge panel is "required by Act of Congress" or that
Plaintiffs action "challenges] the constitutionality of the apportionment of
congressional districts or the apportionment of any statewide legislative body,"
as required by 28 U.S.C. § 2284(a). SO ORDERED by Chief Judge Glenn T. ’
Suddaby on 6/15/2020. (Copy served upon Plaintiff via regular mail), (sal)
(Entered: 06/15/2020)

06/19/2020

9

Letter Motion from Antonia W. Shields requesting status of the case.
(Attachments: # i Envelope)(hmr) (Entered: 06/22/2020)

OBJECTIONS to 5 Report and Recommendations by Antonia W. Shields (hmr)
(Entered: 05/06/2020)

06/22/2020

Clerk mailed a copy of the docket sheet, in response to the 9 letter motion
requesting status of case on 6/22/2020 by regular mail, (see) (Entered:
06/22/2020)

09/11/2020

10 DECISION AND ORDER that Magistrate Judge Hummel's ReportRecommendation (Dkt. No. 5 ) is ACCEPTED and ADOPTED in its entirety.
Plaintiffs Complaint (Dkt. No. i) is DISMISSED with prejudice and without
prior leave to amend pursuant to 28 U.S.C. § 1915(e)(2)(B). Signed by Chief
Judge Glenn T. Suddaby on 9/11/2020. (Copy served upon Plaintiff via regular
and certified mail), (sal) (Entered: 09/11/2020)

09/11/2020

11

JUDGMENT that, pursuant to the Decision and Order issued on September 11,
2020 (Dkt. No. 10 ) by the Honorable Glenn T. Suddaby, that Magistrate Judge
Hummel's Report-Recommendation (Dkt. No. 5 ) is ACCEPTED and
ADOPTED in its entirety. Plaintiffs Complaint (Dkt. No. 1) is DISMISSED
with prejudice and without prior leave to amend pursuant to 28 U.S.C. § 1915(e)
(2)(B). The Clerk is directed to CLOSE this action. All of the above pursuant to
the Decision and Order issued by the Honorable Glenn T. Suddaby, dated
September 11, 2020. Dkt. No. H) .(Copy served upon Plaintiff via regular and

9/24/2020, 3:08 PI

11 LtJJO ./ /

ij iiu-\^i.3iu.u^u/c£i-uni/L;Rifvpi.|ji ro^UJ^o/Zz, 1 OHZ^t i-L, l U

certified mail), (sal) (Entered: 09/11/2020)

AP^ST-J'Df A T® PSTH!^ f>« ^
3 of 3

9/24/2020, 3:08 Pi

